<html>
<title> - EXAMINING UNIFORMITY IN ELECTION STANDARDS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
               EXAMINING UNIFORMITY IN ELECTION STANDARDS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                                 OF THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 HELD IN WASHINGTON, DC, JULY 15, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


                  U.S. GOVERNMENT PRINTING OFFICE
52-798                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama

                           Professional Staff
                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director


               EXAMINING UNIFORMITY IN ELECTION STANDARDS

                              ----------                              


                        WEDNESDAY, JULY 15, 2009

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2 p.m., in room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
(chairwoman of the subcommittee) presiding.
    Present: Representatives Lofgren, Gonzalez, Davis of 
California, Davis of Alabama, McCarthy and Harper.
    Staff Present: Jamie Fleet, Staff Director; Tom Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Jennifer 
Daehn, Election Counsel; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Daniel Favarulo, Legislative 
Assistant, Elections; Joe Wallace, Legislative Clerk; Peter 
Schalestock, Minority Counsel; Karin Moore, Minority 
Legislative Counsel; and Salley Collins, Minority Press 
Secretary.
    Ms. Lofgren. Good afternoon, and welcome to the Committee 
on House Administration's Subcommittee on Elections. Our 
hearing is on Examining the Uniformity in Election Standards.
    Now, the purpose of today's hearing is to explore uniform 
standards in the administration of elections, primarily in 
three areas: pollworker training, provisional balloting, and 
emergency paper ballots. I note that it was the subcommittee's 
intention to invite stakeholders interested in creating uniform 
standards for overseas absentee voting, but the Uniform Law 
Commission is hosting a convention on the same date as our 
hearing to discuss this very same issue. And so the witnesses 
were not available and hopefully we will get back to that 
subject at a future date.
    The American election system, as we know, is not uniform. 
There are various local, State as well as Federal election laws 
and policies. Now, we are not questioning that the 
responsibility to administer elections rests with the State and 
locals. However, this has led to inconsistency and inequality 
in the voting process in some cases.
    We explored in hearings in the 110th Congress the fact that 
pollworkers play an absolutely key role in administering 
elections. The Federal elections require over 2 million 
pollworkers, but often training is left to local jurisdictions 
with little guidance, requirements, and, importantly, funding. 
There are currently no Federal requirements related to 
pollworker training, and less than half the States have 
developed uniform training materials. This ad hoc approach to 
training can result in deficiencies.
    The next area we will hear about today is provisional 
ballots. Now, under HAVA, these ballots were supposed to 
provide voters whose eligibility could not be determined at the 
polling place on election day an opportunity to nevertheless 
vote on that election day. Unfortunately, provisional ballots 
are administered very differently in each State and even within 
the States. And this lack of uniformity could create unfair 
disparities, creating opportunities even for partisanship in 
tallying ballots or contributing to confusion among pollworkers 
or among voters and disenfranchising, in some cases, eligible 
voters.
    Finally, we will address voting equipment allocation and 
the issuance of emergency paper ballot standards. In most 
States allocation of voting equipment is largely determined by 
local election officials. There is oftentimes little or no 
allocation plan for polling places, and that can result in 
polls being ill-prepared and voters experiencing long lines. 
Directly related to this is the need to supply jurisdictions 
with emergency and backup paper ballots for when voting 
equipment breaks down.
    Now, in all of these matters the question comes down to: 
Should the Federal Government develop uniform standards to 
ensure that an equal and fair voting process occurs everywhere 
in the United States? And if the answer is yes, what form 
should the standards take and should they be mandatory or 
voluntary? And what funding is required to ensure compliance 
with consistencies in these standards?
    I look forward to our witnesses addressing these issues 
today, and I appreciate that they have, all four, come to lend 
their expertise and guidance.
    [The statement of Ms. Lofgren follows:]

    [GRAPHIC] [TIFF OMITTED] T2798A.001
    
    Ms. Lofgren. And now I would turn to Mr. Harper for any 
opening statement that he may have, and we will certainly give 
Mr. McCarthy an opportunity when he arrives.
    Mr. Harper. I want to thank the Chair for calling today's 
hearing. As we address the application of election procedure 
today, I hope that we will approach this issue not in terms of 
federally required standards, but how to make the various 
standard election procedures as effective as possible.
    It is important to recognize from the outset that a great 
strength of this Nation is the diversity of its States. States 
have different election cultures, histories and practices. The 
States know best which policies will be most effective in their 
unique circumstances. Allowing States the flexibility to meet 
their specific needs provides an environment for innovation in 
the operation of elections.
    It would be shortsighted of this body to presume that the 
Federal Government can best direct that process by imposing the 
same rules for each State. However, with that deference, I mean 
to be clear that election procedures, once established, should 
be applied consistently statewide.
    Recent history offers two case studies where inconsistent 
application led to challenged outcomes. The 2004 Governor's 
election in Washington and the 2008 U.S. Senator's election in 
Minnesota.
    We have seen the adaptability and success of our current 
system in bringing more people into the voting process. The Pew 
Research Center, in a report published April 30, 2009, observed 
that the electorate in last year's Presidential election was 
the most racially and ethnically diverse in U.S. history.
    As we receive the testimonies of our witnesses, I urge my 
colleagues to approach the issue with a view to ways we can 
incentivize the States to make election procedures simpler and 
more accessible to the voter. At the same time, we must not 
implement mandates that may restrict States' abilities to 
install necessary safeguards against voter fraud.
    With that, I want to thank each of you for being here. We 
look forward to receiving your testimony today. Thank you very 
much.
    Ms. Lofgren. Thank you, Mr. Harper.
    [The information follows:]

                           [COMMITTEE INSERT]

    [The statement of Mr. McCarthy follows:]

    [GRAPHIC] [TIFF OMITTED] T2798A.002
    
    [GRAPHIC] [TIFF OMITTED] T2798A.003
    
    [GRAPHIC] [TIFF OMITTED] T2798A.004
    
    Ms. Lofgren. And unless the gentlelady from California has 
an opening statement?
    Mr. Harper. Madam Chair, if I may, I have two articles I 
would like to submit for the record. One pertains to the 2004 
Governor's election in Washington, and one about the 2008 
Senate race in Minnesota.
    Ms. Lofgren. Those will be made a part of the record, by 
unanimous consent.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2798A.087
    
    [GRAPHIC] [TIFF OMITTED] T2798A.088
    
    [GRAPHIC] [TIFF OMITTED] T2798A.089
    
    [GRAPHIC] [TIFF OMITTED] T2798A.090
    
    [GRAPHIC] [TIFF OMITTED] T2798A.091
    
    [GRAPHIC] [TIFF OMITTED] T2798A.092
    
    [GRAPHIC] [TIFF OMITTED] T2798A.093
    
    [GRAPHIC] [TIFF OMITTED] T2798A.094
    
    Ms. Lofgren. And since we are doing that, I would like to 
note also that, by unanimous consent, I would ask that the 
following documents be made part of this hearing: a statement 
from the Federation of American Women's Club Overseas; a 
statement from the Pew Center on the States; the Pew Report on 
Provisional Voting; and the Pew Data for Democracy Report.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2798A.006
    
    [GRAPHIC] [TIFF OMITTED] T2798A.007
    
    [GRAPHIC] [TIFF OMITTED] T2798A.008
    
    [GRAPHIC] [TIFF OMITTED] T2798A.009
    
    [GRAPHIC] [TIFF OMITTED] T2798A.010
    
    [GRAPHIC] [TIFF OMITTED] T2798A.011
    
    [GRAPHIC] [TIFF OMITTED] T2798A.012
    
    [GRAPHIC] [TIFF OMITTED] T2798A.013
    
    [GRAPHIC] [TIFF OMITTED] T2798A.014
    
    [GRAPHIC] [TIFF OMITTED] T2798A.015
    
    [GRAPHIC] [TIFF OMITTED] T2798A.016
    
    [GRAPHIC] [TIFF OMITTED] T2798A.017
    
    [GRAPHIC] [TIFF OMITTED] T2798A.018
    
    [GRAPHIC] [TIFF OMITTED] T2798A.019
    
    [GRAPHIC] [TIFF OMITTED] T2798A.020
    
    [GRAPHIC] [TIFF OMITTED] T2798A.021
    
    [GRAPHIC] [TIFF OMITTED] T2798A.022
    
    [GRAPHIC] [TIFF OMITTED] T2798A.023
    
    [GRAPHIC] [TIFF OMITTED] T2798A.024
    
    [GRAPHIC] [TIFF OMITTED] T2798A.025
    
    [GRAPHIC] [TIFF OMITTED] T2798A.026
    
    [GRAPHIC] [TIFF OMITTED] T2798A.027
    
    [GRAPHIC] [TIFF OMITTED] T2798A.028
    
    [GRAPHIC] [TIFF OMITTED] T2798A.029
    
    [GRAPHIC] [TIFF OMITTED] T2798A.030
    
    [GRAPHIC] [TIFF OMITTED] T2798A.031
    
    [GRAPHIC] [TIFF OMITTED] T2798A.032
    
    [GRAPHIC] [TIFF OMITTED] T2798A.033
    
    [GRAPHIC] [TIFF OMITTED] T2798A.034
    
    [GRAPHIC] [TIFF OMITTED] T2798A.035
    
    [GRAPHIC] [TIFF OMITTED] T2798A.036
    
    [GRAPHIC] [TIFF OMITTED] T2798A.037
    
    [GRAPHIC] [TIFF OMITTED] T2798A.038
    
    [GRAPHIC] [TIFF OMITTED] T2798A.039
    
    [GRAPHIC] [TIFF OMITTED] T2798A.040
    
    [GRAPHIC] [TIFF OMITTED] T2798A.041
    
    [GRAPHIC] [TIFF OMITTED] T2798A.042
    
    [GRAPHIC] [TIFF OMITTED] T2798A.043
    
    [GRAPHIC] [TIFF OMITTED] T2798A.044
    
    [GRAPHIC] [TIFF OMITTED] T2798A.045
    
    [GRAPHIC] [TIFF OMITTED] T2798A.046
    
    [GRAPHIC] [TIFF OMITTED] T2798A.047
    
    [GRAPHIC] [TIFF OMITTED] T2798A.048
    
    [GRAPHIC] [TIFF OMITTED] T2798A.049
    
    [GRAPHIC] [TIFF OMITTED] T2798A.050
    
    [GRAPHIC] [TIFF OMITTED] T2798A.051
    
    [GRAPHIC] [TIFF OMITTED] T2798A.052
    
    [GRAPHIC] [TIFF OMITTED] T2798A.053
    
    [GRAPHIC] [TIFF OMITTED] T2798A.054
    
    [GRAPHIC] [TIFF OMITTED] T2798A.055
    
    [GRAPHIC] [TIFF OMITTED] T2798A.056
    
    [GRAPHIC] [TIFF OMITTED] T2798A.057
    
    [GRAPHIC] [TIFF OMITTED] T2798A.058
    
    [GRAPHIC] [TIFF OMITTED] T2798A.059
    
    [GRAPHIC] [TIFF OMITTED] T2798A.060
    
    [GRAPHIC] [TIFF OMITTED] T2798A.061
    
    [GRAPHIC] [TIFF OMITTED] T2798A.062
    
    [GRAPHIC] [TIFF OMITTED] T2798A.063
    
    [GRAPHIC] [TIFF OMITTED] T2798A.064
    
    [GRAPHIC] [TIFF OMITTED] T2798A.065
    
    [GRAPHIC] [TIFF OMITTED] T2798A.066
    
    [GRAPHIC] [TIFF OMITTED] T2798A.067
    
    [GRAPHIC] [TIFF OMITTED] T2798A.068
    
    [GRAPHIC] [TIFF OMITTED] T2798A.069
    
    [GRAPHIC] [TIFF OMITTED] T2798A.070
    
    [GRAPHIC] [TIFF OMITTED] T2798A.071
    
    [GRAPHIC] [TIFF OMITTED] T2798A.072
    
    [GRAPHIC] [TIFF OMITTED] T2798A.073
    
    [GRAPHIC] [TIFF OMITTED] T2798A.074
    
    [GRAPHIC] [TIFF OMITTED] T2798A.075
    
    [GRAPHIC] [TIFF OMITTED] T2798A.076
    
    [GRAPHIC] [TIFF OMITTED] T2798A.077
    
    [GRAPHIC] [TIFF OMITTED] T2798A.078
    
    [GRAPHIC] [TIFF OMITTED] T2798A.079
    
    [GRAPHIC] [TIFF OMITTED] T2798A.080
    
    [GRAPHIC] [TIFF OMITTED] T2798A.081
    
    [GRAPHIC] [TIFF OMITTED] T2798A.082
    
    [GRAPHIC] [TIFF OMITTED] T2798A.083
    
    [GRAPHIC] [TIFF OMITTED] T2798A.084
    
    [GRAPHIC] [TIFF OMITTED] T2798A.085
    
    [GRAPHIC] [TIFF OMITTED] T2798A.086
    
    Ms. Lofgren. I would like now to introduce our witnesses. 
We will make your full written statement part of this hearing 
record. And we ask that your testimony consume about 5 minutes 
so we will have an opportunity to ask questions at the 
conclusion. There is a little machine sitting there on the 
front. And there will be a green light. And when it turns 
yellow it means you have a minute left. And when it turns red, 
it means--this is always surprising to people, they have 
actually spoken for 5 minutes. And we won't cut you off mid-
sentence, but we would ask you to try and wrap up at that point 
so that everybody can be heard.
    I would like to introduce the Honorable Mary Herrera. Ms. 
Herrera currently serves as New Mexico's Secretary of State, 
where she has been the Chief Election Administrator since her 
election in 2006. Prior to that she served as Bernalillo County 
Clerk. She is active in many organizations, including serving 
as the president of the National Association of Latino Elected 
and Appointed Officials, as well as being a member of the EAC 
Standards Board.
    We also have the Honorable Ron Thornburgh. He currently 
serves as Secretary of State of Kansas. He has held that 
position since 1994. He is the former president of the National 
Association of Secretaries of States and is an active member of 
the EAC Standards Board.
    Ms. Freddie Oakley currently serves as the County Clerk 
Recorder for Yolo County in California. In 2005 she was Chair 
of the California Secretary of State's Task Force on Uniform 
Pollworker Standards.
    And finally we have the Reverend Edward A. Hailes, Jr. 
Reverend Hailes currently serves as managing director and 
general counsel for Advancement Project, a policy and legal 
action group. Prior to his work with the Advancement Project 
Mr. Hailes was general counsel for the U.S. Commission on Civil 
Rights, and legal counsel for NAACP.
    So welcome to all of you.

   STATEMENTS OF HON. MARY HERRERA, SECRETARY OF STATE, NEW 
   MEXICO; HON. RON THORNBURGH, SECRETARY OF STATE, KANSAS; 
  FREDDIE OAKLEY, YOLO COUNTY CLERK-RECORDER, CALIFORNIA; AND 
 EDWARD A. HAILES, JR., MANAGING DIRECTOR AND GENERAL COUNSEL, 
                      ADVANCEMENT PROJECT

    Ms. Lofgren. And we will begin with you Ms. Herrera.

                 STATEMENT OF HON. MARY HERRERA

    Ms. Herrera. Thank you, Madam Chairwoman Lofgren. It is a 
pleasure to be here this afternoon. I am honored to be here to 
speak to you on elections.
    Prior to becoming county clerk, I worked elections for 
probably 25 years before that. I held positions as a voting 
machine technician, I was a pollworker, I worked on the 
absentee board, I have worked as a radio dispatcher, taking off 
for election day and fulfilling those duties. I have seen 
elections progress through all of these years of being involved 
in the election process.
    I am very proud to announce that New Mexico did set 
standards for provisional ballots this last election and we did 
have a great election. It was actually recorded as one of the 
best elections in a long time in history. It was the largest 
turnout ever. The standards did help within the 33 counties in 
the State of New Mexico. It was actually implemented after the 
Bush and Gore election in 2000. After enacting the provisional 
voting in the Help America Vote Act, Section 302, the Office of 
Secretary of State, we developed the uniform standards for many 
of the processes during that election. This included providing 
uniform standards for provisional voting.
    Certain areas of the State were not uniformly canvassing 
the ballots issued for provisional voters, so we issued 
standards and rules for securing the secrecy of provisional 
paper ballots, especially during canvassing; reviewing, 
recounting, and protecting against fraud in the voting process.
    Most of the clerks supported the uniform standards. The 
change gave them clear concise rules with respect to the 
processing and canvassing of provisional voting. The 
administrative rule specifies how the tally of the ballots 
should be accomplished and the system was definitely improved. 
Also--and I will be open for more questions. I also would like 
to request, I did bring a handout with all of the rules and the 
procedures and the laws of the State of New Mexico, and I ask 
that I can enter that.
    Ms. Lofgren. By unanimous consent, we will make that part 
of the record. Thank you for doing that.
    [The information follows:]
 
   [GRAPHIC] [TIFF OMITTED] T2798A.095
    
    [GRAPHIC] [TIFF OMITTED] T2798A.096
    
    [GRAPHIC] [TIFF OMITTED] T2798A.097
    
    [GRAPHIC] [TIFF OMITTED] T2798A.098
    
    [GRAPHIC] [TIFF OMITTED] T2798A.099
    
    [GRAPHIC] [TIFF OMITTED] T2798A.100
    
    [GRAPHIC] [TIFF OMITTED] T2798A.101
    
    [GRAPHIC] [TIFF OMITTED] T2798A.102
    
    [GRAPHIC] [TIFF OMITTED] T2798A.103
    
    Ms. Herrera. Thank you. Thank you very much.
    Pollworker training. This year I was instrumental, with the 
help of the Governor of the State of New Mexico, to receive 
some extra funding. We helped pollworker training for all the 
pollworkers. The manuals were produced at the Secretary of 
State level and issued to all 33 county clerks. And we did go 
out and do an extra pollworker training with the funding that 
we received through the Governor's help.
    What we did was, there wasn't enough funding to train all 
pollworkers, but we did train the presiding judges and we went 
into the issues that were causing some of the confusion and 
delays: opening and closing of the polls; what is a provisional 
ballot? That is where I believe it ran a lot more smoother, 
because the pollworkers were more aware of what a provisional 
ballot is; when do I issue a provisional ballot; why do I issue 
a provisional ballot.
    There was a lot of confusion when provisional ballots first 
came into law, and that really helped this last election. The 
number actually went down on provisional ballots that were 
issued out at the early voting sites, absentee and election 
day. I really was glad that extra training was available.
    I want to speak about funding at this point. I am going to 
make it very clear there are so many issues in areas that we 
can improve in the election process, but the funding isn't 
always there. I have to commend all of the county clerks in the 
State of New Mexico. They do a great, great job with a limited 
amount of funding. It is just not there. They work hard and 
they do a great job; but the funding, we have to keep that in 
mind.
    There are a lot of demands. Basically every single county 
clerk and Secretary of State, we want to do a good job. We do 
not want to disenfranchise the voters. That is why we take 
these positions. We want to be the best for the citizens. But 
funding, I just needed to throw that in because that is always 
a factor.
    When we attend the National Association of Secretaries of 
States, that seems to be everyone's issue throughout every 
State.
    Military and overseas voting. During the 2008 election New 
Mexico partnered up with the Federal Voting Assistance Program. 
We set up a link on our Web site that gave voters information 
through FVAP. Partnering with them, we implemented the voter 
registration ballot delivery tool, providing military and 
overseas voters an easier way to register to vote, and request 
and receive absentee ballots without sacrificing the secrecy of 
the voter's identity.
    The tool, Web-based application, it simplified the process 
for the uniformed service members and their families, as well 
as the United States residents residing overseas, and completed 
the voter registration and absentee ballot request form. We 
issued guides to citizens through completion according to New 
Mexico-specific requirements. We provided the opportunity to 
further assist the citizens by allowing local election 
officials to send a blank ballot for those citizens to transmit 
their completed form to a local election office via a secure 
server.
    I really commend the Voting Assistance Program for having 
that tool available to all of the States, and I believe we had 
more voters vote through that system. It was just a real, real 
great success.
    Back to provisional ballots, because that is the one I am 
very, very proud about. When I was county clerk for the largest 
county in the State of New Mexico, two-thirds of the votes of 
the State of New Mexico, that was the first year we had 
provisional ballots, and there were no rules. We didn't really 
understand them. It was quick. It was right after the HAVA 
requirements. And we were trying to process them.
    In my county alone, we had close to 9,000 provisional 
ballots. Probably by the time we ended up qualifying them and 
counting them, there were probably about 4,600 that were valid 
ballots. That was great that they were available. But we did 
experience that. That is why it was important for our State to 
issue standards on counting and canvassing.
    Also, I can recall as county clerk, they would argue 
because we had a very close high-profile race in the State of 
New Mexico. Every party, both parties, all parties, were 
fighting for one particular ballot. It was taking hours and 
hours because there was no Voter intent. This year also in the 
State of New Mexico, we have a ballot intent, examples that we 
issued out to the boards as they count these votes. That cut 
down all of the confusion and argument about what constitutes a 
vote.
    That was what we passed, and they no longer could stand 
there and argue for hours and hours. We have ten days to 
canvas, so that was a very important factor for the State of 
New Mexico that we process and get these results, especially 
these high-profile races, the press and the public, and the 
public are angry with the election officials because they do 
not understand that we have all of these requirements and laws 
that we have to abide to. That really, really helped.
    Ms. Lofgren. Thank you so much.
    Ms. Herrera. Thank you.
    [The information follows:]

                           [COMMITTEE INSERT]

    Ms. Lofgren. Mr. Thornburgh, we would love to hear from 
you.

                STATEMENT OF HON. RON THORNBURGH

    Mr. Thornburgh. Thank you so much, Madam Chairwoman. My 
name is Ron Thornburgh, Secretary of State for the State of 
Kansas, and it is an honor to appear before the committee once 
again.
    The last time I had the opportunity to appear before the 
committee was in 2001, 2002, as we were developing the Help 
America Vote Act. And as you recall during that time, many 
questions were raised in our country as to the technical 
prowess of our system and whether the system worked or not. And 
I appear before you today and say that I believe that HAVA and 
the work that was created in HAVA is some of the most 
significant election law in a number of generations in the 
United States because of the framework.
    And I want to talk about that broader issue of the 
framework today, if I might, Madam Chairwoman. HAVA did a 
number of things.
    Number one, it guaranteed every American the right to an 
independent and secret ballot for the first time in our 
history, and I think that is extraordinary.
    Secondly, it infused technology into a system that was 
vastly too reliant upon Big Chief tablet and number 2 pencils, 
and we were able to infuse that technology. But most 
importantly, I think HAVA developed and maintained an 
appropriate role in Federal and State relationships. And that 
was really what drove so much of the response of what we were 
trying to do.
    The point of emphasis during that discussion--and I hope 
will continue with the committee--remain today. And that is 
that equal protection and opportunity for every voter; that any 
uniform standard must be driven to the outcome and not to the 
process, so that we can maintain State and local innovation and 
ability; that the system must be designed not for election 
administrators, not for political parties, not even for 
candidates, the system must be designed to protect the voter 
and provide those opportunities for the voter. And lastly, we 
must do everything we can to maintain a clean and accurate 
voter registration list.
    If we look back to HAVA and what I choose to use as a 
model, the most effective elements of HAVA respected the roles 
of the Federal, State and local partners.
    Using my State of Kansas as an example, we used the HAVA 
resources to create the required statewide voter registration 
database, as I believe every other State has done as well. We 
have been able to take that voter registration database, and 
now, through memorandums of understanding with other States, we 
created partnerships with 11 other States, that we can now 
share databases with our other States to find places where 
perhaps a person moved from one State to another. And we can 
keep our lists cleaner. That was not something that was 
designed through the Federal legislation, but through 
innovation we have been able to do that.
    We have been able to create online voter registration, 
again, not required by HAVA, but it is certainly an outcome 
that I think everyone would want to see.
    E-motor voter. When a person registers to vote at the 
Division of Motor Vehicles, there is an electronic transaction 
that automatically updates their voter registration information 
as well as their driver's license information.
    All of these elements came about because we had the 
flexibility and the freedom to try to move forward in an 
aggressive way. I believe that we have that opportunity today. 
In the one case--and certainly no disrespect to my friends at 
the EAC or at NIST--but in the one case where the Federal 
Government maintained all control was in voting machine 
certification. And it was removed from almost a voluntary 
process through the National Association of State Election 
Directors to our Federal partners. And in that case it took 7 
years.
    Now, certainly there were extraordinary difficulties to 
overcome, and I understand what a mess it was. But in the one 
case where we had Federal oversight, for lack of a better term, 
the system just simply did not work as well as when the States 
and localities were given the reins to try to move forward as 
aggressively as we could.
    I would ask that as you consider legislation, that we allow 
all entities to play to their strengths. In my personal 
opinion, I think that our Federal partners certainly have an 
obligation toward a broad framework, incentives. And I wouldn't 
be from a State if I didn't ask for funding while I was here as 
well. I fully understand my role in that. But that Federal 
funding has meant that we have had the opportunity to do things 
we simply did not have the chance to do before.
    The work that we have accomplished in the Kansas Secretary 
of State's Office could not have been done without the Help 
America Vote Act. However, the work we have done in the State 
of Kansas also could not have been done with a Help America 
Vote Act that was driven through Federal standards rather than 
State opportunity.
    I appreciate the chance to appear before you today and I 
look forward to answering your questions.
    Ms. Lofgren. Thank you very much.
    [The statement of Mr. Thornburgh follows:]

    [GRAPHIC] [TIFF OMITTED] T2798A.104
    
     [GRAPHIC] [TIFF OMITTED] T2798A.105
    
     [GRAPHIC] [TIFF OMITTED] T2798A.106
    
    Ms. Lofgren. And now we will hear from Ms. Oakley.

                  STATEMENT OF FREDDIE OAKLEY

    Ms. Oakley. Thank you, Madam Chair and members. I am 
Freddie Oakley, the elected clerk recorder for Yolo County, 
California. Yolo County is a medium-sized county. We are right 
across the river from the State capitol, and we are the home of 
University of California/Davis, which has been a tremendous 
resource for me as county clerk.
    Thank you for the opportunity to testify today on behalf of 
the pollworker training standards. It is a subject on which I 
have some expertise, having chaired the Secretary of State's 
2005 task force and having personally trained thousands of 
pollworkers during my career.
    The first issue that I would like to address is the 
foundational one to all others concerning pollworkers, and that 
is who are they. Well, the answer is that they are a broad 
spectrum of Americans. And they run the gamut from highly 
compassionate and helpful to mean and bossy people.
    Pollworker training is absolutely necessary, in my view, to 
establish boundaries and limits on their discretionary 
authority. In California we emphasize in our best practices 
that pollworkers must be oriented to this underlying and 
overarching philosophy.
    Ms. Lofgren. Ms. Oakley, can you see if your microphone is 
on?
    Ms. Oakley. Silly me.
    Ms. Lofgren. Thank you so much.
    Ms. Oakley. In California we emphasize in our best 
practices that pollworkers must be oriented to the underlying 
and overarching philosophy of election administration, which is 
first and foremost. We are here to help people vote and to 
protect their ballots.
    Second, we will help every potential voter who enters our 
polling place regardless of physical and mental abilities, 
race, religion, language or shoe size. In short, we have to get 
pollworkers to believe that they are not cops, they are more 
like nurses. And their first thought should be, how can I help 
you? This is, incidentally, one reason that California has 
developed a system to verify voter identity in the office 
rather than at the polls. We want absolutely to have uniform 
application of voter ID laws. And we believe that if it is left 
to pollworkers, who are essentially volunteers who are trained 
for an hour or two and who work a couple of times a year, we 
will not get that uniform application.
    The question arises: What should we be teaching 
pollworkers? Well, first we need to orient them to the rights 
of voters, the requirement to be helpful and the requirement to 
respect and assist voters with disabilities, different 
languages and different cultures.
    We should also orient pollworkers to their election day 
duties and how to carry them out. And we must orient them to 
the requirements for polling place setup, poll opening as well 
as poll closing, ballot security, accounting tasks, and how to 
deliver securely the ballots. This is far too much for one 
class.
    So what we really need to do is to strongly instruct 
pollworkers on the limits of their authority and the 
requirement to be helpful, and then to teach them about the 
many resources that we provide for them on election day. We try 
to do all the work up front for them so that they have 
laminated cheat sheets, they have check-off lists, they have 
booklets to follow as they open and close the polls. And the 
effect of this is that we can concentrate in training on the 
more complex intellectual matters, and we can leave the nuts 
and bolts to our extremely well-designed resource materials.
    In California we recommend, and in my county we require, at 
least 1 hour of hands-on practice on the voting system itself. 
Most voting systems now depend on complex and finely tuned 
computer systems and there is no adequate substitute for hands-
on experience.
    This hands-on training during which pollworkers practice 
setting up, using, and taking down the voting system, also 
provides a critical opportunity for my staff, or our staffs, to 
meet returning and, more importantly, new pollworkers. We get 
to assess their strengths and weaknesses and to reinforce our 
underlying and overarching philosophy of helpfulness. And 
during training, hands-on training, we are also able to remind 
pollworkers that they are not cops; that they should use 
provisional ballots, which are their personal get-out-of-jail-
free cards--if they will use provisionals we will make the 
tough decisions for them--and to remind them to call 
troubleshooters when they need them.
    The question arises: Should pollworker training be 
standardized? Well, I believe it should. In California our 
absolutely wonderful Secretary of State, Debra Bowen, is well 
on the way to instituting most of the uniform standards 
recommended by the 2005 task force. We would hope that she also 
institutes adequate funding for counties to comply with those 
requirements.
    Our expectation is that the application of these uniform 
requirements and standards will help us approach real equal 
opportunity for voters, which they deserve and have a right to 
demand. My personal belief is that national standards would 
extend the principle of equality even more broadly and I 
believe that is a good thing. Thank you.
    Ms. Lofgren. Thank you very much.
    [The statement of Ms. Oakley follows:]

    [GRAPHIC] [TIFF OMITTED] T2798A.107
    
     [GRAPHIC] [TIFF OMITTED] T2798A.108
    
     [GRAPHIC] [TIFF OMITTED] T2798A.109
    
     [GRAPHIC] [TIFF OMITTED] T2798A.110
    
     [GRAPHIC] [TIFF OMITTED] T2798A.111
    
     [GRAPHIC] [TIFF OMITTED] T2798A.112
    
     [GRAPHIC] [TIFF OMITTED] T2798A.113
    
     [GRAPHIC] [TIFF OMITTED] T2798A.114
    
     [GRAPHIC] [TIFF OMITTED] T2798A.115
    
     [GRAPHIC] [TIFF OMITTED] T2798A.116
    
     [GRAPHIC] [TIFF OMITTED] T2798A.117
    
     [GRAPHIC] [TIFF OMITTED] T2798A.118
    
     [GRAPHIC] [TIFF OMITTED] T2798A.119
    
     [GRAPHIC] [TIFF OMITTED] T2798A.120
    
     [GRAPHIC] [TIFF OMITTED] T2798A.121
    
     [GRAPHIC] [TIFF OMITTED] T2798A.122
    
     [GRAPHIC] [TIFF OMITTED] T2798A.123
    
     [GRAPHIC] [TIFF OMITTED] T2798A.124
    
     [GRAPHIC] [TIFF OMITTED] T2798A.125
    
     [GRAPHIC] [TIFF OMITTED] T2798A.126
    
     [GRAPHIC] [TIFF OMITTED] T2798A.127
    
     [GRAPHIC] [TIFF OMITTED] T2798A.128
    
     [GRAPHIC] [TIFF OMITTED] T2798A.129
    
     [GRAPHIC] [TIFF OMITTED] T2798A.130
    
     [GRAPHIC] [TIFF OMITTED] T2798A.131
    
     [GRAPHIC] [TIFF OMITTED] T2798A.132
    
     [GRAPHIC] [TIFF OMITTED] T2798A.133
    
     [GRAPHIC] [TIFF OMITTED] T2798A.134
    
     [GRAPHIC] [TIFF OMITTED] T2798A.135
    
     [GRAPHIC] [TIFF OMITTED] T2798A.136
    
     [GRAPHIC] [TIFF OMITTED] T2798A.137
    
     [GRAPHIC] [TIFF OMITTED] T2798A.138
    
     [GRAPHIC] [TIFF OMITTED] T2798A.139
    
     [GRAPHIC] [TIFF OMITTED] T2798A.140
    
     [GRAPHIC] [TIFF OMITTED] T2798A.141
    
     [GRAPHIC] [TIFF OMITTED] T2798A.142
    
     [GRAPHIC] [TIFF OMITTED] T2798A.143
    
     [GRAPHIC] [TIFF OMITTED] T2798A.144
    
     [GRAPHIC] [TIFF OMITTED] T2798A.145
    
     [GRAPHIC] [TIFF OMITTED] T2798A.146
    
     [GRAPHIC] [TIFF OMITTED] T2798A.147
    
     [GRAPHIC] [TIFF OMITTED] T2798A.148
    
     [GRAPHIC] [TIFF OMITTED] T2798A.149
    
     [GRAPHIC] [TIFF OMITTED] T2798A.150
    
     [GRAPHIC] [TIFF OMITTED] T2798A.151
    
    Ms. Lofgren. And finally we turn to you, Reverend Hailes. 
We would love to hear from you.

               STATEMENT OF EDWARD A. HAILES, JR.

    Mr. Hailes. Thank you very much, Chairwoman, and members of 
this committee. Certainly it is my honor to present this 
testimony on behalf of Advancement Project.
    Ms. Lofgren. Could you please turn your mike on? There is a 
little button there.
    Mr. Hailes. All right. Is that better? Fantastic.
    Again, on behalf of Advancement Project, we thank you for 
this opportunity to present a focus on specific issues within 
the context of election administration. There are many areas of 
election administration where we believe uniform standards 
would be helpful.
    Today, my testimony will focus on emergency ballots and 
provisional ballots. For nearly 10 years, Advancement Project 
has worked on the ground with a number of voters and groups 
that support voters. We have examined disparities and 
irregularities in the administration of election procedures in 
the course of helping voters when they need help the most. We 
are plainly concerned with the lack of uniformity across the 
Nation. We are more familiar with particular States, but we do 
know that geography makes a difference in whether voters will 
have their rights protected or violated. In the absence of an 
unequivocal, explicit, affirmative right to vote in the United 
States Constitution, voters are subject to the 13,000 separate 
voting systems across the Nation that interpret and apply laws 
differently. Without uniform standards we find that some voters 
are treated differently, and unfairly particularly voters of 
color in historically disenfranchised communities.
    Again, because I want to focus on emergency ballots and 
provisional ballots, I will just take for one example the State 
of Pennsylvania and its administration of emergency ballots in 
the 2008 elections. I am joined today by my colleague Kathy 
Boockvar who is a senior attorney with Advancement Project in 
Pennsylvania, and her dutiful work, along with a number of 
coalition partners, really put a spotlight on a system that did 
not provide emergency ballots in cases where a number of voting 
machines had broken down during the primary. The groups came 
together, did an analysis, pointed out the real problem of 
waiting for 100 percent of all voting machines to be broken 
down--before emergency ballots were provided, and made specific 
recommendations to the Department of State. Those 
recommendations including directions and proposed uniform rules 
included making certain that emergency paper ballots must be 
offered immediately to voters as soon as at least half of the 
voting machines in a precinct were not functioning, they 
pointed out that emergency paper ballots must be clearly 
distinguished from provisional and other ballots; i.e., that 
emergency paper ballots must be treated as regular, not 
provisional ballots. They should be paper ballots, and no 
qualified regular voter who votes by emergency ballot should be 
subject to any requirement associated with provisional ballots, 
which I will talk about in just a minute. And then, consistent 
with Ms. Oakley's point about pollworker training, all 
pollworkers must be properly trained about these distinctions 
and requirements.
    Secretary of State Cortes took steps in the right direction 
in response to these urgent requests following the primaries, 
but he did not go far enough. A lawsuit was filed. And on 
October 29th, less than a week before the general election, the 
court granted plaintiff's motion for preliminary injunction on 
the ground that the delay associated with waiting to vote in a 
precinct where 50 percent or more of the voting machines were 
inoperable could unduly burden voting rights, in violation of 
the Federal equal protection clause.
    And subsequent to the election, the court issued a 
permanent injunction requiring that emergency ballots be 
distributed as soon as half of the voting machines in a 
precinct fail. That is as a result of litigation; that is as a 
result of aggressive advocacy. This emergency ballot rule does 
not exist in every State.
    Similarly, in Virginia, there was a strong need for 
emergency ballots. An analysis was conducted by Advancement 
Project, working with other groups, that point out that there 
was a simple misallocation of polling-place resources--from 
pollworkers to machines--by precinct, which resulted in what we 
call a time tax where certain voters in specific precincts were 
required to--to stand in longer polling place lines than 
others. So that time tax can only be eliminated with uniform 
standards related to polling-place resources.
    Provisional ballots. We need to amend HAVA. HAVA must be 
amended to ensure that people voting in the so-called wrong 
precinct are actually allowed to have their ballots counted for 
all of the officials for which they are eligible to vote. Thank 
you very much.
    Ms. Lofgren. Thank you very much.
    [The statement of Mr. Hailes follows:]

    [GRAPHIC] [TIFF OMITTED] T2798A.152
    
    [GRAPHIC] [TIFF OMITTED] T2798A.153
    
    [GRAPHIC] [TIFF OMITTED] T2798A.154
    
    [GRAPHIC] [TIFF OMITTED] T2798A.155
    
    [GRAPHIC] [TIFF OMITTED] T2798A.156
    
    [GRAPHIC] [TIFF OMITTED] T2798A.157
    
    [GRAPHIC] [TIFF OMITTED] T2798A.158
    
    [GRAPHIC] [TIFF OMITTED] T2798A.159
    
    Ms. Lofgren. And thanks to all of our witnesses for useful 
testimony.
    Now is the time when we will have a chance to ask some of 
our questions, and I would like to give the first opportunity 
to question to our Ranking Member, Mr. McCarthy.
    Mr. McCarthy. Thank you very much, Madam Chair. And thank 
you to all the witnesses today. I appreciate the testimony.
    If I can just quickly follow up on your last testimony. So 
I am looking at nationwide data table--and you alluded to that 
on calls to election protection hotline 2008. And I went down 
to Pennsylvania, and they keep the data of why people call. The 
number one reason people call is because they want to know 
where their polling place is, 1,600.
    The next one is about registration, 1,300. The next one is 
polling place again. It is a polling place problem and 
registration problem. By high numbers. I only see here--those 
are 400 and 411--177 called about equipment problems. But you 
were relating to a lawsuit that you sued, and there were a lot 
of equipment problems, but I don't see the correlation to the 
data of the phone calls that were made.
    Mr. Hailes. By the calls--you are making a determination by 
the number of calls?
    Mr. McCarthy. If I had a problem and I was calling and I 
didn't have equipment, I would call about the equipment.
    Mr. Hailes. Some people call the election offices. Some 
election officials did the right thing and were on the spot 
with certified technicians to correct those problems. So, in 
fact, the lawsuit did work. You had fewer calls because some 
election officials acted and voters did not have to make calls 
to the hotline.
    Mr. McCarthy. What made you do the lawsuit in the first 
place?
    Mr. Hailes. The lawsuit was filed because there was no 
final judgment by the Secretary in place that machines broken--
50 percent of them--would result in emergency ballots being 
provided. Without the lawsuit, the State would have required 
all of the machines in all of the precincts to be broken before 
emergency ballots would be provided.
    Mr. McCarthy. Did you bring a lawsuit to give greater 
information to people to know where their polling places were 
or how to do registration?
    Mr. Hailes. We did not bring any lawsuit in Pennsylvania. 
We worked with the Secretary to make it happen. Other groups 
within our coalition did bring the lawsuit. We, as many other 
groups that we work with, use litigation as a last resort. I 
have been very pleased with the amount of cooperation we get 
from election officials once they get the data, get the 
information, and see that in order to protect the rights of 
voters they have to take very assertive steps.
    Mr. McCarthy. Watching the data shows there are certain 
priorities of things. Educating the voters seems like it would 
be a top item.
    But if I could go to Secretary Ron Thornburgh, you said you 
worked with HAVA. Could you give me a little update of when you 
worked through that balance between Federal and State, because 
that was a major change in pattern, particularly in the area of 
provisional ballots; how did you guys go about doing that 
debating? What were some of the tough difficult times of 
getting to where you got to?
    Mr. Thornburgh. Well, if I might, I would say first we have 
to understand the emotions of the time. We had just come off a 
2000 Presidential election in which there was, if I may be so 
bold as to say, there was an incredible movement within 
Washington, D.C. to federalize elections. Obviously it wasn't 
working. We need to federalize it. I think, rather clearly, was 
opposed to that. And the point that I consistently tried to 
make is that although the process was flawed, the system worked 
and we ultimately got to where we needed to go. Some will still 
disagree with that yet today.
    But as we finally got to the biggest issue, and that is the 
one you have outlined there: What is the appropriate role for 
the Federal Government and what is the appropriate role for the 
States and what is the appropriate role for local entities as 
well as for a number of private entities that are out there 
pushing this along as well?
    I think what we ultimately found is that the States given--
and I have said this in my testimony--when they are given the 
reins and the opportunity to do something, we are not 
restricted through Federal regulation, then we can go above and 
beyond.
    And if I may use a brief example. On voting machines and 
emergency paper ballots, for instance, within the State of 
Kansas, I can tell you we don't mark emergency ballots by how 
many machines go down. We mark it by voters are having to wait 
in line; get them a ballot. And if that voter chooses to wait 
in line, then they certainly may do so.
    And so a Federal law that would require a basis upon how 
many machines break down would completely disrupt and, I think, 
serve Kansas voters worse than what we are able to do now. And 
so I think we have to be careful on that.
    Mr. McCarthy. Madam Chairman, one quick follow-up that I 
want to get to. My understanding is you just started an on-line 
registration.
    Mr. Thornburgh. That is right.
    Mr. McCarthy. Quickly, because we have some votes coming 
up, what are the safeguards you built in if somebody registers 
on line?
    Mr. Thornburgh. The single most important safeguard is that 
an on-line voter registration, in my opinion, only works when 
it is tied in with the Division of Motor Vehicles. So in order 
for a person to register to vote on line in the State of 
Kansas, they must be registered--or have a driver's license. 
Because at that point, we have already captured a signature and 
we have gone through the other elements of security that go 
along with that as well, and now they can tie in and receive 
the voter registration opportunity.
    And then we have the follow-up when we mail that individual 
their voter registration information to verify they actually 
live where they say they live.
    Mr. McCarthy. You have a signature to check.
    Mr. Thornburgh. That is correct.
    Mr. McCarthy. Thank you, Madam Chair. I would just like to 
submit for the record the nationwide data table for the 
Advancement Project project voter.
    Ms. Lofgren. Without objection, that table will be made 
part of the record.
    [The information follows:]

                           [COMMITTEE INSERT]

    Ms. Lofgren. And I would now turn to my colleague from 
California, Mrs. Davis, for any questions she may have.
    Mrs. Davis of California. Thank you, Madam Chair. Thank you 
all for being here.
    One of the things that I have learned in coming to this 
committee is really how varied it is out there. And I think in 
some cases we would say that is a really good thing, because it 
gives the flexibility. But on the other hand, I think it 
creates a lot of confusion as well.
    I know that when during the election time here in D.C. It 
feels people just make mistakes because they are listening to 
the radio, they are hearing several different ways in which 
they can access polling hours and absentee ballots, et cetera. 
And that really does seem to confuse everybody.
    We also know from the military and overseas voting that 
people have to grapple with 50 different sets of absentee 
ballot requirements, and that becomes a problem.
    So I think that having some things uniform is important. 
The Constitution only lays out the fact that people have to 
vote on Tuesday. That is the only thing that is truly uniform 
across the country.
    And I wonder, then, could you share a few areas in which 
you think actually some of the standardization, the uniformity, 
should be in place that would be helpful, cause less confusion 
for voters, and, in the end, really benefit the voter rather 
than necessarily the counties in terms of ease of election 
material? Is there anything else that you feel that you can 
share with us that you really do believe should be more 
uniform?
    Ms. Herrera. Madam Chair, Ranking Member McCarthy and 
members of the committee. As my colleague right here is 
mentioning, they have on-line voter registration. In New Mexico 
it wouldn't work because we are not at that level yet. However, 
sitting on the EAC Advisory Board, I do use a lot of their 
issued voluntary standards. I believe if we get some of those 
voluntary standards out to some of these States, or they start 
utilizing them or practicing some of the practices that they 
are issued out, I believe we probably would come a little bit 
closer than everyone running their own in the States.
    But it won't always--everything won't work for every State, 
because I have my laws, he has his laws that he has to abide 
to. So it would kind of interfere with our State statute.
    I will just give you an example. I am for standardizing--
before I go on, we should standardize and run our State's 
uniformity. I think that is important. It shouldn't be any 
different within the States. However, we have to make sure that 
we do not disenfranchise any voters. Like New Mexico, we have a 
lot of native lands, and we have got to make sure that they are 
not disenfranchised.
    Mrs. Davis of California. I think also, if I may just 
inject, we are also talking not just statewide elections, but 
we are also talking Federal elections.
    Ms. Herrera. Correct.
    Mrs. Davis of California. Where people should have an equal 
opportunity and equal chance to cast their ballot, which, in 
some cases, I think that is really not true.
    Ms. Herrera. In New Mexico I do everything in my power to 
make sure that no one is disenfranchised. I do depend a lot on 
EAC standards and work with the lawmakers in the State of New 
Mexico.
    Ms. Oakley. Mrs. Davis, I would like to point out that what 
you have brought up is essentially a little cascade that occurs 
in elections. The Feds kick it down to the States; you know, 
okay, we have the NVRA, but now we have the States. They get to 
decide what they are going to do.
    In California at least, the State kicks it down to the 
counties. Now the counties are going to decide how things are 
done. And then finally, in essence, the counties kick it down 
to the pollworkers, and now you have got four 75-year-old 
ladies deciding how things should be done.
    And I truly believe that unless you have an overarching 
standard, you don't have overarching equality. And to me that 
is very worrisome.
    Mrs. Davis of California. Did you want to comment. Mr. 
Thornburgh.
    Mr. Thornburgh. I tried very hard to not, but I have to. I 
want to go back to part of what I said.
    Mrs. Davis of California. Well, my time is going to be up. 
So, Madam Chair.
    Ms. Lofgren. By unanimous consent, the gentlelady is 
granted an additional minute so Mr. Thornburgh can answer.
    Mr. Thornburgh. I will be very brief. I think where there 
is a need for standards, we need to look to outcomes rather 
than process. Because what works for Los Angeles, California, 
is not going to work for Leoti, Kansas. And we have to 
understand and appreciate those differences in this country of 
ours. And certainly we want to push outcomes that provide for 
equal opportunity and equal access for every voter.
    And I absolutely believe that we are working towards that. 
And if we can keep outcomes in mind rather than process, then I 
think we are on the right track.
    Mrs. Davis of California. Can I just ask as a no-excuse 
absentee voter State, do you think it is appropriate that 
people do not have to get a notary signature, for example, in 
order to vote absentee?
    Mr. Thornburgh. In Kansas?
    Mrs. Davis of California. Yes.
    Mr. Thornburgh. Yes, I do think that is appropriate. I 
think that a notarization is an unnecessary burden in that 
particular process. I don't know that it is appropriate for me 
to tell my friends in other States what I think is appropriate 
for them, but in Kansas that works well for us.
    Mrs. Davis of California. Thank you very much.
    Ms. Lofgren. The gentlelady yields back. Mr. Harper.
    Mr. Harper. Thank you, Madam Chair. You know, having in 
another life as a highly unpaid political volunteer for 30 
years--and I was county party chair in my home county and had 
to run primaries for 7 years, and of course the clerks' offices 
do an incredible job in Mississippi--I am just trying to figure 
out how Federal control over that process is going to help 
those pollworkers do better than the system that is in place. 
The problem that we had sometimes was, no matter how much 
training you had of pollworkers that, sometimes they still 
didn't quite get it on election day.
    And so I want to say that the system that we have used 
worked extremely well, which was we had a very involved circuit 
clerk's office. We had people available to answer questions. If 
they ran short of ballots, we got them to them when we were 
doing paper ballots back years ago.
    And then, invariably, we had problems with the electronic 
machines. That has happened this past time. And no matter how 
you plan ahead, you have those issues.
    But I would just say that we want uniform standards within 
that individual State, but I don't want to have Washington, 
D.C. Be the one to tell you how it should be done in New Mexico 
or Kansas or California, Mississippi. If those States--and we 
have an incredible group of secretaries of state that do an 
exceptional job across our country to make sure that those 
things happen.
    I assume if you looked for the imposition and management of 
Federal standards that were mandatory on you, would you 
envision the EAC being the organization to oversee that--or the 
Department of Justice? Anybody have an answer to that?
    Mr. Hailes. Let me start by saying--and thank you for the 
question, Mr. Harper--that both the EAC and the Department of 
Justice could play a role in overseeing the administration of 
standards once they are in place.
    The advantage of having uniform standards is to help avoid 
the type of 11th-hour litigation that causes many pollworkers 
and election officials to complain about. Pollworkers find 
themselves on election day with different interpretations of 
their responsibilities. There is no clear, uniform answer for 
them to determine what happens to a voter who moves within the 
last 20 days from one county to another; whether they have to 
cast a regular ballot or a provisional ballot. And so they are 
looking for clear direction, and that can be done through 
uniform standards.
    Mr. Harper. Reverend Hailes, can't the secretary of State 
for that State along with the clerk's office for that county 
handle and answer those questions? And of course in our State 
we provide that training for those pollworkers in those 
primaries, and of course in the general election the circuit 
clerk's office handles those in my State. Don't you think that 
local control and local training is better than having someone 
come in from Washington, D.C. Let's say to do that. And I would 
be interested in knowing Secretary Herrera what your response 
is on that.
    Ms. Herrera. I agree that the Secretary of State and the 
county clerks within the State should run their elections as 
needed. I agree that at the Federal level there can be some 
standardization. For instance, of course, like the time; you 
know, election day 7:00 a.m. to 7:00 p.m. Just items like that, 
that won't interfere with the election process.
    What works in New Mexico won't work in other states. Also, 
anyone can vote absentee; they don't have to have a reason. I 
know some States do. Maybe that could be one of the standards 
and allow folks to vote absentee, I don't know.
    I know that the ID requirement is always coming up in all 
the States, just make sure it is standard. Something like that 
can be a standardized item, rather than getting into the nitty-
gritty of running elections, because we have already voting 
sites. I have 15 in the larger counties--18, 2, and none in 
some of our smaller counties.
    Mr. Harper. Secretary Herrera, my time is almost up, but I 
know there was an issue with ACORN in your State.
    Ms. Herrera. Right.
    Mr. Harper. Have you been involved in any of the 
investigation of the voter fraud allegations there, either 
working with the FBI investigators--or have you been involved 
in any hearings on those allegations?
    Ms. Herrera. I was county clerk when we turned some of the 
voter registration forms over to the U.S. Attorney General for 
review. And so, yes, I have been involved.
    Mr. Harper. Thank you.
    Ms. Lofgren. The gentleman yields back. Mr. Davis.
    Mr. Davis of Alabama. Thank you, Madam Chairwoman. Let me 
hone in on a provisional ballot question because it strikes me 
as the most interesting question that we are dealing with. Who 
on the panel believes that there should be a uniform nationwide 
standard for how provisional ballots are handled, at least in 
Federal races?
    Mr. Hailes. I would say I do, if it is the right uniform 
standard.
    Mr. Davis of Alabama. Well, it is the one you write. I get 
that. Who on the panel believes it is a general proposition? 
Ms. Herrera.
    Ms. Herrera. I think qualifying provisional ballots and who 
is entitled to provisional ballots can be a standard at a 
Federal level, because we are all stating we don't want anyone 
to be disenfranchised. Right now we have requirements that we 
must issue provisional ballots if we received any of the HAVA 
funding. So why not make standards as far as who is entitled 
and why, and why they exist? I believe that would help 
nationwide.
    Mr. Davis of Alabama. Let me follow up on that. The whole 
policy purpose behind provisional ballots, as I understand it, 
is to allow eligible voters to have an opportunity to maintain 
their eligibility or to assert their eligibility if it is 
somehow questioned on election day.
    Now, the way eligibility is defined in Federal races is you 
have to be an American citizen who is 18 years of age or over. 
And, of course, given States have restrictions, for example, on 
convicted felons. I think that is the most popular and the only 
kind of exclusion that I really know of--if you are a convicted 
felon and have committed a certain class of crime, you are 
disenfranchised.
    So if an American citizen is over the age of 18 and does 
not have a felony status, shouldn't that individual be presumed 
to be eligible to vote in any Federal election?
    Ms. Oakley. I would say yes, absolutely.
    Mr. Davis of Alabama. I think we all agree with that, so 
that leads to my question.
    Mr. Thornburgh. I apologize for interrupting. I am not sure 
we all agree with it, because I am not sure I followed the----
    Mr. Davis of Alabama. Well, you may see where my question 
is going.
    Mr. Thornburgh. Did we say we assume every person who shows 
up is qualified to vote?
    Mr. Davis of Alabama. No.
    Mr. Thornburgh. I misunderstood. I apologize.
    Mr. Davis of Alabama. An American who is a citizen who is 
over the age of 18 and has no felony disqualification, I think 
all of us would agree States ought to have the right--or most 
of us would agree States ought to have the right to wade into 
that area. You may disagree as a matter of public policy, but 
most of us would agree that States have the right to wade into 
that area.
    So stipulate that for one second. Someone who is not 
disqualified because of a prior conviction, who is an American 
citizen who is over the age of 18 and who lives in that State, 
I would assume we would agree that a person who fits those 
characteristics ought to be able to cast a vote in a Federal 
race in that State, correct?
    So, therefore, if we allow multiple States to have 
different standards when it comes to provisional ballots, don't 
we undermine that agreement?
    For example, I am looking at the data the committee 
provided: 17 States will count provisional ballots if you voted 
in the wrong precinct; 27 States won't.
    Now, whether I live in Mountain Brook, Alabama or Homewood, 
Alabama doesn't touch one of those core qualifications that I 
mentioned: my age, my status as an American, and my non-felony 
condition.
    So it would seem to me Congress does have the right to say 
that there is kind of a national eligibility standard that 
exists, and that given communities can't chip away at that. 
Because if there are 27 States that would not allow a vote in 
the wrong precinct by someone who fits those standards to 
count, arguably those 27 States are undermining a principle of 
enfranchisement.
    You are nodding your head affirmatively, Ms. Oakley. I 
assume you agree.
    Mr. Thornburgh, you are seeming to disagree. Tell me why 
you disagree.
    Mr. Thornburgh. Well, I wanted to clarify one point, 
because I think one of the elements of the opportunity to vote 
is also registration. And registration is an element that is 
important.
    Mr. Davis of Alabama. If someone is registered and they are 
voting in the wrong precinct, why shouldn't they be allowed to 
still vote?
    Mr. Thornburgh. For the races in which they are eligible to 
vote----
    Mr. Davis of Alabama. For Federal races, for President of 
the United States.
    Mr. Thornburgh. In my State of Kansas, if a person shows up 
in the wrong polling place, they are given a provisional 
ballot, and we count the votes for the offices in which they 
were eligible to vote, from Federal through State.
    Mr. Davis of Alabama. But some States don't do that. Don't 
you think it is problematic that some States can deny the 
franchise to someone who is otherwise legally entitled to vote 
in a Federal race? Because that is what happens.
    If I can have an additional 30 seconds, Madam Chairwoman, 
isn't that what happens? If some States can deny the 
provisional ballot based on precinct, haven't they undermined a 
core Federal ability to participate in an election?
    Mr. Thornburgh. I would respectfully disagree, in that part 
of the process is that a person in order to be able to cast 
their ballot--I hate to fall back on the rules of the game, but 
the rules are you kind of have to follow the rules of the 
election. You need to vote on a ballot. You need to vote on the 
voting machine. You need to follow that process. And that 
process has been established to--either having a ballot sent to 
you, in the case of advance voting or whatever the case may be, 
or going to the appropriate polling place to have that cast.
    So I don't know that the State removed that individual's 
right to cast their vote, but the individual didn't follow the 
rules established by the State.
    Mr. Hailes. But if I may, Mr. Thornburgh said it is not 
about process, it is about outcomes. The outcome in that 
circumstance would be disenfranchisement.
    Mr. Davis of Alabama. My time has expired.
    Ms. Lofgren. And my time has begun. First let me thank all 
of the witnesses for your very interesting testimony. I think 
what we want to do is to help enfranchise people. I think you 
all want to do that. And the question is, what is the 
appropriate role for the Federal Government to help promote 
that?
    Just listening, I was fascinated by your description, Ms. 
Herrera, of outlining what is voter intent in advance of the 
election. What a smart thing to do, so you are not with the 
candidates, fighting over what does it mean when you do the 
happy faces around the candidate's name, that is going to 
decide the outcome of the election. You decide how to read that 
type of nonsense in advance so that everybody knows.
    I don't know whether best practices that States engage in 
will simply be adopted by States if the EAC provides that 
information. I think, probably, yes.
    But there are certain elements--I think that certainly we 
rely on the States and counties to run the elections, but the 
Federal Government has the opportunity or responsibility for 
Federal elections. And we want to make sure that if there are 
Americans who are being disenfranchised, that that doesn't 
happen.
    I guess the question I have is: If you had voluntary 
standards, let's say, for example, use Mr. Davis' example of 
provisional ballots, and it is very clear from the ballot that 
a majority of the provisional ballots cast are not counted in 
the United States. That doesn't mean that is true in all of 
your jurisdictions. But if you add it up in the United States, 
that is the fact. So it is really not necessarily serving the 
intent that people had in mind to the extent that people were, 
in fact, Americans over 18 and eligible to vote.
    If we had those standards and made them voluntary, but 
mandatory, to the extent that States accepted HAVA money, would 
that be effective in your judgment?
    Mr. Thornburgh, would that be offensive if it was made--if 
you take the money, you have to take the rules?
    Mr. Thornburgh. Well, I think to a large extent, those 
rules are in effect; if you take the money, you need to follow 
these rules.
    If I may talk about the provisional for just a moment, you 
said there were a vast majority of provisionals that were not 
counted. I would assume--and I don't know these facts so I 
should be careful what I say--but I would assume that a large 
number of those were individuals who were not registered to 
vote, who showed up on election day. I don't know that for a 
fact.
    But I can tell you in the State of Kansas, the single thing 
that we have done, of the provisional ballots prior to the 
previous election, of the provisional ballots on election day, 
there were individuals who registered to vote through the 
Division of Motor Vehicles. The paper process was not forwarded 
to the county election officer. That person applied to register 
to vote but was never, in fact, registered. So that was a 
mistake on the process part.
    We then created the electronic transmission of that same 
information, and we addressed, I think, about 80 percent of the 
problems on election day through that single change that we 
made for that.
    So we were both getting to the same point. Let's reduce the 
number of provisional ballots and make sure everyone's vote 
counts who has an opportunity to do so; but we may disagree on 
what that is supposed to look like or what the road map looks 
like.
    Ms. Lofgren. I understand your point. I think the point on 
outcomes has merit as well, because the idea--and I like your 
``time tax'' phrase because that is exactly what it is. If one 
citizen has to wait for 15 hours to vote and another citizen 
has to wait for 5 minutes, that is not equal protection. That 
is not fair.
    But the answer may not be how many polling places; it is 
what do you have to do when the wait is over 15 minutes? And 
that would be the outcome that you are suggesting; am I 
correct, Mr. Thornburgh?
    Mr. Thornburgh. Yes, Madam Chairwoman.
    Ms. Lofgren. I guess the other thing I wanted to mention, 
we had a hearing last Congress about title VII of the National 
Voting Rights Act, which is widely ignored, unfortunately, 
around the United States. And I think your motor vehicle 
advance sounds like a very thoughtful and useful procedure.
    Have you also instituted those procedures in social service 
agencies and the like, as title VII suggests should occur?
    Mr. Thornburgh. Madam Chairwoman, we have not implemented 
those in the other social service agencies because the vast 
majority of registrations--and I want to say it is about 65 
percent of all new registrations in the State of Kansas--now 
come through DMV. So we were trying to wrestle the biggest one 
first.
    We do have the opportunity through title VII to do that 
through the other agencies, but we have not made that 
electronically.
    Ms. Lofgren. My time has expired and I don't want as Chair 
to take advantage of that, but I do hope that you will take a 
look at that.
    One of the things that we were--I was frustrated about--was 
that the Department of Justice really didn't do anything about 
title VII last year. And I think with the new Department, that 
is going to change. So I think it is a good time for all 
secretaries of state to review their title VII compliance.
    With that, I am going to thank once again all the members 
of the committee and the witnesses. I would note that the 
hearing record will be open for 5 days for additional questions 
that members may have and the written record will be 
maintained.
    [The information follows:]

                           [COMMITTEE INSERT]

    Ms. Lofgren. I am advised that Reverend Hailes wanted to 
submit something, so let me invite you to bring that up at this 
time.
    Mr. Hailes. Thank you so much, Madam Chairwoman. This is an 
Advancement Project 2008 report on provisional voting entitled 
``Fail-Safe Voting or Trap Door to Disenfranchisement?''
    Ms. Lofgren. Without objection, that will be made a part of 
the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2798A.160
    
    [GRAPHIC] [TIFF OMITTED] T2798A.161
    
    [GRAPHIC] [TIFF OMITTED] T2798A.162
    
    [GRAPHIC] [TIFF OMITTED] T2798A.163
    
    [GRAPHIC] [TIFF OMITTED] T2798A.164
    
    [GRAPHIC] [TIFF OMITTED] T2798A.165
    
    [GRAPHIC] [TIFF OMITTED] T2798A.166
    
    [GRAPHIC] [TIFF OMITTED] T2798A.167
    
    [GRAPHIC] [TIFF OMITTED] T2798A.168
    
    [GRAPHIC] [TIFF OMITTED] T2798A.169
    
    [GRAPHIC] [TIFF OMITTED] T2798A.170
    
    [GRAPHIC] [TIFF OMITTED] T2798A.171
    
    [GRAPHIC] [TIFF OMITTED] T2798A.172
    
    [GRAPHIC] [TIFF OMITTED] T2798A.173
    
    [GRAPHIC] [TIFF OMITTED] T2798A.174
    
    [GRAPHIC] [TIFF OMITTED] T2798A.175
    
    [GRAPHIC] [TIFF OMITTED] T2798A.176
    
    [GRAPHIC] [TIFF OMITTED] T2798A.177
    
    [GRAPHIC] [TIFF OMITTED] T2798A.178
    
    [GRAPHIC] [TIFF OMITTED] T2798A.179
    
    [GRAPHIC] [TIFF OMITTED] T2798A.180
    
    [GRAPHIC] [TIFF OMITTED] T2798A.181
    
    [GRAPHIC] [TIFF OMITTED] T2798A.182
    
    [GRAPHIC] [TIFF OMITTED] T2798A.183
    
    [GRAPHIC] [TIFF OMITTED] T2798A.184
    
    [GRAPHIC] [TIFF OMITTED] T2798A.185
    
    [GRAPHIC] [TIFF OMITTED] T2798A.186
    
    [GRAPHIC] [TIFF OMITTED] T2798A.187
    
    [GRAPHIC] [TIFF OMITTED] T2798A.188
    
    [GRAPHIC] [TIFF OMITTED] T2798A.189
    
    [GRAPHIC] [TIFF OMITTED] T2798A.190
    
    [GRAPHIC] [TIFF OMITTED] T2798A.191
    
    [GRAPHIC] [TIFF OMITTED] T2798A.192
    
    [GRAPHIC] [TIFF OMITTED] T2798A.193
    
    [GRAPHIC] [TIFF OMITTED] T2798A.194
    
    [GRAPHIC] [TIFF OMITTED] T2798A.195
    
    [GRAPHIC] [TIFF OMITTED] T2798A.196
    
    [GRAPHIC] [TIFF OMITTED] T2798A.197
    
    [GRAPHIC] [TIFF OMITTED] T2798A.198
    
    [GRAPHIC] [TIFF OMITTED] T2798A.199
    
    Ms. Lofgren. If there is nothing further, then we will be 
adjourned; and just in time, because we have been called for 
votes across the street on the House floor. Thank you very 
much.
    This meeting is adjourned.
    [Whereupon, at 3:13 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2798A.200
    
    [GRAPHIC] [TIFF OMITTED] T2798A.201
    
    [GRAPHIC] [TIFF OMITTED] T2798A.202
    
    [GRAPHIC] [TIFF OMITTED] T2798A.203
    
    [GRAPHIC] [TIFF OMITTED] T2798A.204
    
    [GRAPHIC] [TIFF OMITTED] T2798A.205
    
    [GRAPHIC] [TIFF OMITTED] T2798A.206
    
    [GRAPHIC] [TIFF OMITTED] T2798A.207
    
    [GRAPHIC] [TIFF OMITTED] T2798A.208
    
    [GRAPHIC] [TIFF OMITTED] T2798A.209
    
    [GRAPHIC] [TIFF OMITTED] T2798A.210
    
    [GRAPHIC] [TIFF OMITTED] T2798A.211
    
    [GRAPHIC] [TIFF OMITTED] T2798A.212
    
    [GRAPHIC] [TIFF OMITTED] T2798A.213
    
    [GRAPHIC] [TIFF OMITTED] T2798A.214
    
    [GRAPHIC] [TIFF OMITTED] T2798A.215
    
    [GRAPHIC] [TIFF OMITTED] T2798A.216
    
    [GRAPHIC] [TIFF OMITTED] T2798A.217
    
    [GRAPHIC] [TIFF OMITTED] T2798A.218
    
    [GRAPHIC] [TIFF OMITTED] T2798A.219
    
    [GRAPHIC] [TIFF OMITTED] T2798A.220
    
    [GRAPHIC] [TIFF OMITTED] T2798A.221
    
    [GRAPHIC] [TIFF OMITTED] T2798A.222
    
    [GRAPHIC] [TIFF OMITTED] T2798A.223
    
    [GRAPHIC] [TIFF OMITTED] T2798A.224
    
    [GRAPHIC] [TIFF OMITTED] T2798A.225
    
    [GRAPHIC] [TIFF OMITTED] T2798A.226
    
    [GRAPHIC] [TIFF OMITTED] T2798A.227
    
    [GRAPHIC] [TIFF OMITTED] T2798A.228
    
    [GRAPHIC] [TIFF OMITTED] T2798A.229
    
    [GRAPHIC] [TIFF OMITTED] T2798A.233
    
    [GRAPHIC] [TIFF OMITTED] T2798A.234
    
    [GRAPHIC] [TIFF OMITTED] T2798A.235
    
    [GRAPHIC] [TIFF OMITTED] T2798A.236
    
    [GRAPHIC] [TIFF OMITTED] T2798A.237
    
    [GRAPHIC] [TIFF OMITTED] T2798A.238
    
    [GRAPHIC] [TIFF OMITTED] T2798A.239
    
    [GRAPHIC] [TIFF OMITTED] T2798A.240
    
    [GRAPHIC] [TIFF OMITTED] T2798A.241
    

</pre></body></html>
